                                                                 UNCLASSIFIED


                                                United States Department of State 

                                             and the Broadcasting Board of Governors 

                                                    Office of Inspector General 

Office of Inspector General 


                                                         Office of Audits 



                                           Audit of Department of State 

                                              Compliance With the 

                                        Improper Payments Information Act 



                                             Report Number AUD/FM-12-31, March 2012




                                                                 Important Notice

                                This report is intended solely for the official use of the Department of State or the
                                Broadcasting Board of Governors, or any agency or organization receiving a copy
                                directly from the Office of Inspector General. No secondary distribution may be
                                made, in whole or in part, outside the Department of State or the Broadcasting Board
                                of Governors, by them or by other agencies of organizations, without prior
                                authorization by the Inspector General. Public availability of the document will be
                                determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
                                disclosure of this report may result in criminal, civil, or administrative penalties.



                                                                UNCLASSIFIED 

                                                              United States llepartment of State
                                                              and the Broadcasting Board of Governors

                                                              Offi.ce oj Inspector General




                                            PREFACE

        This report was prepared by the Office of Inspeclor General (010) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
as part ofOIO's responsibility to promote effective management, accountability and positive
change in the Department of State and the Broadcasting Board of Governors.

      This report addresses the Department of State's (Department) compliance with the
Improper Payments lnfonnation Act of 2002, as amended by the Improper Payments Elimination
and Recovery Act. The report is based on interviews with employees and officials of the
Department, and a review of applicable documents.

       OIG contracted with the external audit firm, Kearney & Company, P.c. (Kearney) , to
perform this audit. The contract required that Kearney perfornl its audit in accordance with
guidance contained in the Governmenl Auditing Standards, issued by the Comptroller General of
the United States. Kearney's report is included.

       Kearney identified three areas in which improvements could be made: the risk
assessment of improper payments, recapture audit activities, and improper payments reporting .

       OIG evaluated the nature, extent, and timing of Kearney's work; monitored progress
throughout the audit; reviewed Kearney's supporting documentation; evaluated key judgments;
and performed other procedures as appropriate. OIG concurs with Kearney 's findings, and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft fornl with those individuals responsible for
implementation. OIG's analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                       Harold W. Geisel
                                       Deputy Inspector General
                                                       1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                       PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




Audit of Department of State Compliance with the Improper Payments Information Act


Office of Inspector General
U.S. Department of State
Washington, D.C.


Kearney & Company, P.C. (Kearney) has performed an audit of the Department of State’s
(Department) compliance with the Improper Payments Information Act of 2002, as amended by
the Improper Payments Elimination and Recovery Act of 2010. Kearney evaluated the
Department’s performance in complying with the requirements set forth by the Office of
Management and Budget. This performance audit, performed under Contract No.
SAQMMA09D0002, was designed to meet the objective identified in the report section titled
“Objective” and further defined in Appendix A, “Scope and Methodology.”

Kearney conducted this performance audit from December 2011 through February 2012 in
accordance with Government Auditing Standards, issued by the Comptroller General of the
United States. The purpose of this report is to communicate the results of Kearney’s
performance audit and its related findings and recommendations.

Kearney appreciates the cooperation provided by personnel in Department offices during the
audit.




Kearney & Company, P.C.
Alexandria, Virginia
March 14, 2012
                                 UNCLASSIFIED


______________________________________________________________________________
Acronyms
AFR              Agency Financial Report
BOC              budget object class code
Department       Department of State
GFMS             Global Financial Management System
IPERA            Improper Payments Elimination and Recovery Act of 2010
IPIA             Improper Payments Information Act of 2002
Kearney          Kearney & Company, P.C.
OIG              Office of Inspector General
OMB              Office of Management and Budget
RFMS             Regional Financial Management System
RM               Bureau of Resource Management
RM/GFS/F/C       Global Financial Services, Global Financial Operations, Office of Claims
RM/GFS/OMA       Global Financial Services, Office of Oversight and Management Analysis




                                 UNCLASSIFIED

                                                            UNCLASSIFIED


                                                         Table of Contents

 

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Objective ..............................................................................................................................4 


Audit Results........................................................................................................................5 

   A. Improper Payments Risk Assessment Methodology Was Insufficient ....................5 

   B. Recapture Audit Activities Were Not Performed for All Types of Improper 

       Payments or All Payments .......................................................................................9 

   C. Required Improper Payments Disclosures in the FY 2011 Agency Financial 

       Report Were Omitted or Were Inaccurate .............................................................13 


List of Recommendations ..................................................................................................16 


Appendices
   A. Scope and Methodology ........................................................................................17 

   B. Department of State Response ...............................................................................19 





                                                            UNCLASSIFIED

                                              UNCLASSIFIED


                                          Executive Summary

        According to the Office of Management and Budget (OMB), the Federal Government
makes billions of dollars in improper payments each year. Over the past decade, the Federal
Government has implemented safeguards to reduce improper payments. In 2010, the Improper
Payments Elimination and Recovery Act of 20101 (IPERA), which amended the Improper
Payments Information Act of 20022 (IPIA), was signed into law. IPERA strengthened IPIA by
increasing requirements for identifying and reporting on improper payments. In April 2011,
OMB issued guidance to implement IPERA requirements.

        IPERA requires agencies’ Offices of Inspector General (OIG) to annually determine
compliance with improper payments requirements.3 In accordance with this requirement,
Kearney & Company, P.C. (Kearney), an external audit firm acting on OIG’s behalf, conducted
this audit to determine whether the Department of State (Department) was in compliance with
IPIA, as amended by IPERA.

        Kearney found that the Department has taken steps to comply with IPIA. The
Department performed a risk assessment of improper payments, implemented a recapture audit
process, and included information on the risk assessment process and recapture audit activities in
its FY 2011 Agency Financial Report (AFR).4 However, Kearney found that the Department’s
improper payments risk assessment methodology was insufficient, recapture audit activities were
not performed for all types of improper payments or all payments, and some improper payments
disclosures required to be included in the AFR were omitted or were inaccurate. These
deficiencies occurred primarily because of the lack of formal policies and procedures.
Management Comments

       In its March 2012 draft of this report provided to the Department, OIG made three
recommendations to enhance the Department’s current controls and processes for preventing and
promptly detecting and recovering improper payments and to help ensure compliance with
Federal improper payments requirements. Specifically, OIG recommended that the Department
develop policies and standardized procedures for performing improper payments risk
assessments and recapture audit activities and for reporting information relating to improper
payments in its AFR.

       In its March 12, 2012, response (see Appendix B) to the draft report, the Department
concurred “with the recommendations that the Department’s existing risk assessments, recapture,
and reporting activities for improper payments can be strengthened with added policies and
procedures.” The Department stated that it “has employed numerous preventative and


1 Pub. L. No. 111-204.

2 Pub. L. No. 107-300.

3 Pub. L. No. 111-204 § 3(b). 

4 Federal agencies may publish their financial statements in either an AFR or a Performance Accountability Report. 

The Department has elected to use the AFR format.




                                                   1
                                              UNCLASSIFIED
                                            UNCLASSIFIED


identification methods to support IPIA requirements” and is “committed to meeting” the
requirements “in a reasoned manner.”

        Based on the Department’s concurrence with the recommendations, OIG considers the
three recommendations resolved. However, these recommendations will remain open until the
Department provides documentation showing that it has taken actions to fully implement the
recommendations.

                                             Background
        According to OMB, the Federal Government wastes billions of taxpayer dollars each year
on improper payments to individuals, organizations, and contractors. Improper payments are
payments that should not have been made or that were made in an incorrect amount. Improper
payments include overpayments and underpayments, duplicate payments, payments made to an
ineligible recipient, payments for an ineligible good or service, payments for goods or services
not received (except for such payments authorized by law), payments that do not account for
credit for applicable discounts, and payments for which an agency cannot determine whether the
payments were proper because of insufficient or lack of supporting documentation.

        Over the past decade, the Federal Government has implemented safeguards to reduce
improper payments. IPIA, as initially enacted in 2002, required Federal agencies to annually
identify programs and activities5 at high risk of improper payments, estimate the amount of
improper payments in those programs, perform recovery auditing if program payments exceeded
$500 million, and report to Congress on steps taken to reduce improper payments.

       Despite efforts to reduce improper payments, in FY 2010 agencies reported an estimated
$125 billion in improper payments.6 In July 2010, in an effort to further reduce improper
payments, the President signed into law IPERA, an amendment to IPIA. IPERA clarified the
programs to be reviewed, expanded payment recapture activities, and established compliance
reviews and additional requirements for agencies that were deemed noncompliant.

       In April 2011, OMB issued guidance for agencies implementing IPERA requirements, as
Revised Parts I and II to Appendix C of OMB Circular A-123, Management’s Responsibility for
Internal Control. The guidance, among other things, defines the programs and payments that
agencies must assess for the risk of improper payments and provides requirements for
determining whether the risk of improper payments is significant, for developing an estimate of
improper payments, for performing recapture audit activities, and for reporting improper
payments activities.

Department of State Payments

      The Department is the primary agency through which the U.S. Government conducts its
diplomacy. The Department operates more than 270 embassies, consulates, and other posts
5The term “program and activity” is referred to in this report as “program.” 

6U.S. Government Accountability Office, Improper Payments: Recent Efforts to Address Improper Payments and 

Remaining Challenges (GAO -11-575T, April 15, 2011). 


                                                 2
                                            UNCLASSIFIED
                                              UNCLASSIFIED


worldwide. The Department provides policy guidance, program management, administrative
support, and in-depth expertise in areas such as law enforcement, economics, the environment,
intelligence, arms control, human rights, counternarcotics, counterterrorism, public diplomacy,
humanitarian assistance, security, nonproliferation, and consular services.

        Because of the nature and the extent of its programs, the Department makes significant
payments to third-party vendors, contractors, and grantees. During FY 2011, the Department
reported approximately $30.1 billion in gross costs.7 Of that amount, approximately $2.5 billion
related to intragovernmental transactions and another $6.9 billion was for personnel costs, of
which both amounts can be excluded from improper payments reviews.8 The amount and
volume of payments made by the Department, the Department’s emphasis on expediting certain
payments (for example, payments for necessary foreign financial assistance), and the
decentralized nature of the Department’s operations increase the Department’s risk for improper
payments.

        The Department’s Bureau of Resource Management (RM) has oversight responsibilities
for the Department’s financial management program. Financial management program
responsibilities include establishing financial policy and procedure, financial reporting and
analysis, management of financial information systems, and management controls. Management
controls, also known as “internal controls,” are the processes designed and implemented by an
organization to help it accomplish its goals or objectives. Important internal control activities
include those that are aimed at ensuring that only valid, proper payments are made.

        The Department has internal controls in place to help prevent improper payments from
occurring. For payments to vendors, vendors must submit invoices to either the Department’s
financial service centers or to the foreign post that procured the good or service. For an invoice
to be paid, an approved official must certify that the good or service was received and ensure that
the invoice is valid and accurate. Once the invoice is approved, two Department personnel, a
voucher examiner and a certifying officer, are required to process the payment. The voucher
examiner enters the transaction into the Department’s accounting system and ensures that all
supporting documentation has been submitted. The certifying officer reviews the transaction and
verifies that the supporting documentation is complete and the accounting data is correct. The
Department’s financial accounting systems have automated controls that also verify certain
payment-related information. For example, the domestic accounting system, the Global
Financial Management System (GFMS), does not process payments with duplicate invoice
numbers from one vendor. The Department uses other systems and processes to disburse
payments for other activities (for example, grant payments or payments to pensioners). The
Department has prepayment controls in place for these payments as well.




7 Gross costs includes costs such as operating expenses, benefits, and depreciation.

8 OMB Circular A-123, Appendix C, states that agencies may, but are not obligated to, review intragovernmental 

transactions and payments to employees for improper payments unless directed to do so by OMB.


                                                   3
                                              UNCLASSIFIED
                                      UNCLASSIFIED


                                         Objective

       The overall objective of this audit was to determine whether the Department was in
compliance with IPIA, as amended by IPERA. To accomplish this objective, Kearney

   	 Evaluated whether the Department conducted a program-specific risk assessment for all
      programs.

   	 Evaluated the Department’s performance in preventing, reducing, and recapturing
      improper payments.

   	 Reviewed the Department’s FY 2011 AFR to determine whether the Department
      complied with reporting requirements.




                                           4
                                      UNCLASSIFIED
                                               UNCLASSIFIED


                                                Audit Results

A. Improper Payments Risk Assessment Methodology Was Insufficient

        Risk assessments provide a baseline for establishing appropriate policies and selecting
cost-effective techniques to implement these policies. The Department performed a risk
assessment of improper payments in FY 2011. However, the Department’s risk assessment
methodology was insufficient. Specifically, the Department did not correctly apply the
2.5 percent improper payments rate threshold to determine risk susceptible programs, did not
include all program costs in the programs reviewed, and did not consider all factors likely to
contribute to improper payments. These deficiencies occurred because the Department had not
developed policies and standard procedures for performing the risk assessments. As a result, the
Department may not have identified all programs that were at risk of significant improper
payments.

        IPERA requires agencies to review all programs and identify those that are susceptible to
significant improper payments. IPERA defines “significant” as improper payments in the
program for the preceding fiscal year that may have exceeded (1) $10 million of all program
payments made and 2.5 percent of program outlays or (2) $100 million. OMB Circular A-123,
Appendix C, requires that agencies institute a systematic method of performing the reviews, also
known as “risk assessments.”

        Kearney found that the Department performed a risk assessment of improper payments in
FY 2011. The Department used a two-phased approach for its risk assessment. During the first
phase, the Department assessed its controls over payments by grouping all expenses into six
major payment categories: employee payments, travel payments, Federal financial assistance–
grants, Federal financial assistance–international organizations payments, miscellaneous
payments, and vendor payments. Based primarily on the Department’s tests of controls
performed during the OMB Circular A-123, Appendix A,9 process and the absence of significant
deficiencies identified during prior internal reviews and external audits, the Department
concluded that employee payments, travel payments, and Federal financial assistance–grants
were at low risk for being susceptible to significant improper payments. The risk for being
susceptible to significant improper payments for the remaining three payment categories, Federal
financial assistance–international organizations payments, miscellaneous payments, and vendor
payments, was assessed during the second phase of the Department’s risk assessment.

        In the second phase, the Department reviewed its programs to identify those programs
susceptible to significant improper payments. To identify programs and their related costs, the
Department grouped its FY 2010 domestic expenses using a combination of the financial codes
used to record transactions in GFMS–the function code and the budget object class code (BOC).
According to the Foreign Affairs Handbook (FAH),10 function codes show the purpose of the
payment and are used to meet the Department’s requirements for identifying and classifying the
9 Appendix A in OMB Circular A-123 provides a methodology for agency management to assess, document, and 

report on internal controls over financial reporting. This effort is separate from the improper payments requirements 

in Appendix C. 

10 4 FAH-1 H-511(7) and 4 FAH-1 H-512 b(1). 




                                                    5
                                               UNCLASSIFIED
                                           UNCLASSIFIED


programs under the Department’s appropriations. For example, the Department has function
codes for activities such as Arms Control and the Africa Refugee Program. BOCs identify the
kind of services, materials, and other resources for which payments are made.11 For example,
the Department uses BOCs for items such as voluntary contributions and contractor security
guard payments. The Department identified each group of expenses with the same function code
and BOC combination as a program.

         To determine which of its programs were susceptible to significant improper payments,
the Department calculated an improper payments threshold by applying the 2.5 percent rate in
IPERA to the Department’s total FY 2010 costs of $27.5 billion. Only four programs, those
listed in Table 1, had expenses that met or exceeded the Department’s threshold of
$687.55 million.

Table 1. Programs Meeting the Department’s Improper Payments Threshold
Program                                     FY 2010 Program Expenses (in millions)
Construction                                                $903.1
Retirement                                                  $836.4
African Union-United Nations Hybrid Mission                 $763.4
in Darfur
Near East Refugee Program                                   $741.6
Source: Department IPIA risk assessment documentation.

         The Department assessed each of these four programs for the risk of improper payments.
The assessment considered some qualitative factors, such as payment calculation complexity, the
monitoring procedures in place, and a determination as to whether internal control material
weaknesses or deficiencies that could increase improper payments had been identified in the
program. However, a primary consideration in the second phase of the assessment was the
Department’s $687.55 million threshold. The Department’s risk assessment documentation
states that, based on the threshold, “between 76% - 92% of all payments made within those
programs would have to be in error to trigger required reporting.” The Department concluded
that “the risk of those four programs being susceptible to making significant improper payments
(i.e., having errors exceeding 76% of the total program)” was very low.

        Although the Department performed a risk assessment of improper payments, the risk
assessment methodology it used was insufficient. Specifically, the Department did not correctly
apply the 2.5 percent improper payments rate threshold for identifying risk susceptible programs
and, as a result, did not review all of its programs. In addition, the Department did not include
all program costs in the programs it reviewed, and the Department’s risk assessment did not
consider all factors likely to contribute to improper payments.

Improper Payments Threshold

       OMB Circular A-123, Appendix C, states that significant improper payments are gross
annual improper payments in the program exceeding (1) both 2.5 percent of program outlays and
$10 million of all program payments made or (2) $100 million. The Circular defines the term
11   4 FAH-1 H-611.

                                                6
                                           UNCLASSIFIED
                                            UNCLASSIFIED


“program” to include “activities or sets of activities recognized as programs by the public, OMB,
or Congress, as well as those that entail program management or policy direction.” Programs
include, but are not limited to, all grants, regulatory activities, research and development
activities, direct Federal programs, all types of procurements, credit programs, and the activities
engaged in by the agency in support of its programs.

        The Department did not correctly apply the 2.5 percent improper payments rate threshold
to determine risk susceptible programs. It applied the 2.5 percent threshold against total agency
costs instead of the costs of each program, as was required. The Department’s misinterpretation
of the threshold requirement inflated the amount of improper payments necessary for a program
to be at risk. The amounts of significant improper payments for the four identified programs
using the 2.5 percent rate threshold for each program compared with the threshold calculated by
the Department are shown in Table 2.

Table 2. Comparison of Improper Payments Amounts Using Program Expenses and Total
Costs
                                                   Amount of Significant Improper
                                                               Payments
                                                       2.5% of       2.5% of Total
                              FY 2010 Program         Program         Department
                                   Expenses           Expenses            Costs
          Program                (in millions)      (in millions)     (in millions)
Construction                        $903.1              $22.58           $687.55
Retirement                          $836.4              $20.91           $687.55
African Union-United
Nations Hybrid Mission in
Darfur                              $763.4              $19.08           $687.55
Near East Refugee Program           $741.6              $18.54           $687.55
Source: Kearney prepared based on the Department’s IPIA risk assessment documentation.

        As shown in Table 2, all four programs met the requirements for programs that could be
susceptible to significant improper payments. In addition, had the Department correctly applied
the 2.5 percent rate threshold to all programs, the Department would have identified additional
programs requiring further risk assessment. For example, the Department’s Ambassadors-at-
Large program had FY 2010 expenses amounting to $558.7 million. This program met the
IPERA threshold, but it was not identified as a potentially risk susceptible program by the
Department.

Program Costs

       Although OMB Circular A-123, Appendix C, states that an agency is not obligated to
include intragovernmental transactions and payments to employees in its improper payments
reviews, the circular does not identify any other types of payments that may be excluded. All
program costs should be identified in order for the Department to accurately calculate the
improper payments rate threshold for each program.



                                                 7
                                            UNCLASSIFIED
                                        UNCLASSIFIED


        The Department did not include all program costs in the programs reviewed. Grouping
its expenses by function code enabled the Department to identify and review some of its larger
programs. However, this methodology captured only program costs with specific function code
and BOC combinations. Although each program, or function code, may have expenses relating
to multiple BOCs, the Department did not aggregate all BOCs for the same function code. For
example, the majority of FY 2010 costs for the Near East Refugee Program were disbursed
between two BOCs, Voluntary Contributions and Cooperative Agreements. Individually,
expenses categorized as Voluntary Contributions totaled $741.6 million and Cooperative
Agreements totaled $55.8 million. Aggregated programs costs exceeded $797 million, but all
costs were not considered during the second phase of the risk assessment.

Qualitative Factors

         OMB Circular A-123, Appendix C, states that an agency can consider risk factors likely
to contribute to significant improper payments as part of its systematic method of reviewing
programs. At a minimum, these risk factors should include the following: whether the program
is new; the complexity of the program, particularly with respect to determining correct payment
amounts; the volume of program payments made annually; whether payments or payment
eligibility decisions are made outside the agency; recent major changes in program funding or
practices; the level, experience, and quality of training for personnel making program eligibility
determinations or certifying that payments are accurate; significant deficiencies in audit reports;
and results from prior improper payments work.

        The Department considered some but not all of these qualitative factors during its risk
assessment. The Department did not take into account all risk factors likely to contribute to
significant improper payments. For example, the risk assessment for the four programs that the
Department reviewed did not include a consideration of whether the program was new to the
agency; the volume of payments made annually; recent major changes in program funding,
authorities, practices, or procedures; or the level, experience, and quality of training for
personnel responsible for certifying that payments are accurate.

        Further, although not specifically required by IPERA or OMB, Kearney noted that the
Department did not obtain input for the risk assessment from bureaus or offices other than RM.
Bureau program personnel are the best source for information about their programs and
associated risks. Without input from program managers, RM may not be aware of factors that
could increase or decrease a program’s risk, such as the complexity of the program; unique
contractual requirements; or the existence, or lack of, program-specific controls. In addition, if
these sources are not consulted during the risk assessment process, RM may not become aware
of significant changes in the program, and the use of outdated or inaccurate information may lead
to an incorrect assessment of program risk.

        The deficiencies in the Department’s risk assessment methodology occurred primarily
because the Department did not develop policies and standard procedures for performing the risk
assessment. Specifically, the Department did not develop a comprehensive definition of what
constitutes a Department program, a process to align all costs to the programs, and policies and



                                             8
                                        UNCLASSIFIED
                                       UNCLASSIFIED


procedures for assessing each program’s risks that included the consideration of all relevant
qualitative factors and input from bureau program managers.

        By not developing and performing a sufficient risk assessment, the Department may not
have identified all programs with the risk of significant improper payments. Therefore, the
Department could not determine whether its improper payments were significant enough to
require corrective action. A risk assessment is the starting point for any successful improper
payments reduction and recapture program. The information developed during a risk assessment
forms the foundation upon which management can determine the nature and type of controls in
place and identify control improvements to reduce risks and ultimately improper payments.

       Recommendation 1. OIG recommends that the Bureau of Resource Management
       develop policies and standard procedures for performing an improper payments risk
       assessment. The policies and procedures should include, but not be limited to, the
       following:

              A comprehensive definition of the programs to be assessed.
              A method to ensure that all program costs are identified.
              A description of the quantitative and qualitative factors to be considered.
              A method to obtain input from the bureaus and offices responsible for the
               programs.

       Department Response: The Department concurred that the Department’s existing risk
       assessments “can be strengthened with added policies and procedures.”

       OIG Reply: OIG considers the recommendation resolved, pending further action. This
       recommendation can be closed pending OIG’s review and acceptance of the
       Department’s policies and procedures for performing an improper payments risk
       assessment.

B. Recapture Audit Activities Were Not Performed for All Types of Improper
Payments or All Payments
        Payment recapture audits are detective or corrective control activities designed to assist
management in identifying and recapturing overpayments. The Department implemented a
recapture audit process that, in conjunction with its routine post-payment reviews, identified and
recovered improper vendor payments totaling over $45 million since FY 2007. However, the
Department limited its recapture audits to one type of improper payments and excluded a
significant amount of payments from the audits. The Department did not perform and document
cost-benefit analyses to support the exclusions and did not inform OMB or OIG. In addition, the
recapture audit process was focused on payments alone without a consideration of program
factors that may have increased or decreased the risk of improper payments. As a result, the
Department may not have identified and recovered all improper payments.

      IPERA requires agencies to conduct recovery audits (also known as “recapture audits”) if
conducting such audits would be cost effective. According to OMB Circular A-123, Appendix

                                            9
                                       UNCLASSIFIED
                                             UNCLASSIFIED


C, a recapture audit is a review and analysis of accounting and financial records, supporting
documentation, and other information supporting payments that is specifically designed to
identify overpayments.

         Kearney found that the Department had implemented a recapture audit process. RM’s
Global Financial Services, Office of Oversight and Management Analysis12 (RM/GFS/OMA),
performs the Department’s recapture audit activities. RM/GFS/OMA uses IDEA, a data analysis
tool, to audit domestic payments on a monthly basis. RM/GFS/OMA extracts a data file of
payments made during the previous month from GFMS and imports the file into IDEA. IDEA
performs a search for potential duplicate payments by comparing the invoice number and dollar
amount of each payment in the monthly data file against the payments made during the previous
3 years. Payments with the same invoice number and dollar amount are extracted into a separate
file of potential duplicate payments. RM/GFS/OMA provides the potential duplicate payments
to the Global Financial Operations, Office of Claims13 (RM/GFS/F/C), for review. Through this
process, RM/GFS/OMA identified $567,336 in actual duplicate payments made during FY 2011.
Of this amount, $567,014 was recaptured.

       In addition to the recapture audit activities performed by RM/GFS/OMA, RM/GFS/F/C
performed post-payment review activities. For example, RM/GFS/F/C selects random samples
of payments on a monthly basis and reviews the sampled items for adequate support, proper
approval, and the validity and accuracy of the amounts disbursed. RM/GFS/F/C also uses data-
matching techniques similar to the recapture audit activities to identify potential duplicate
payments. The Department considers these post-payment reviews a part of the routine payment
process. As required by OMB Circular A-136, as revised, Financial Reporting Requirements,
the amounts identified and recovered during these reviews are reported as improper payments
recoveries outside the scope of recapture audits. During FY 2011, RM/GFS/F/C identified $15.6
million in overpayments through its post-payment reviews, of which the Department recovered
$14.4 million.

      Together, the Department’s post-payment reviews and recapture audits identified
improper vendor payments totaling approximately $49.4 million from FYs 2007–2011. Of that
amount, the Department recovered approximately $45.9 million, as shown in Table 3.

Table 3. Improper Payments Identified and Recovered From FYs 2007–2011
                                  Amount Identified       Amounts Recovered (in FY)
            FY                       (in millions)               (in millions)
           2011                                    $16.6                         $15
           2010                                      8.1                          7.9
           2009                                      3.9                          3.8
           2008                                     15.4                        14.3
           2007                                      5.4                          4.9
           Total                                   $49.4                       $45.9
Source: Department AFRs from FYs 2007–2011.

12 RM/GFS/OMA is responsible for, among other things, ensuring compliance with financial laws, policies, and

procedures and performing internal control and quality control reviews. 

13 RM/GFS/F/C is the central domestic funding paying agent of the Department.




                                                  10
                                             UNCLASSIFIED
                                           UNCLASSIFIED




        Although the Department performed recapture audits, the audits were limited to one type
of improper payments–duplicate payments. In addition, the Department excluded a significant
amount of payments from the recapture audits. However, the Department did not conduct and
document costs-benefit analyses to support these exclusions or inform OMB and OIG of the
exclusions, as was required. In addition, the Department focused its recapture audits on
payments rather than programs, which limited the Department’s ability to target recapture
activities on the highest risk programs.

Recapture Audit Exclusions

        OMB Circular A-123, Appendix C, states that agencies may exclude payments from
certain programs from payment recapture audit activities if the agency determines that payment
recapture audits are not a cost-effective method for identifying and recapturing improper
payments. If an agency excludes a program that expends more than $1 million, the agency must
notify OMB and OIG of this decision and include any analysis used by the agency to reach this
decision.

        Kearney found that the Department’s recapture audits were limited to a search for
duplicate payments. The audits did not search for other types of improper payments. For
example, the audits were not designed to identify overpayments or underpayments and were not
designed to identify payments for goods and services not received, payments to ineligible
recipients, fraudulent payments, or payments that lacked adequate support.

        Kearney also found that the Department’s FY 2011 recapture audit process did not
include a significant amount of payments. Specifically, the Department excluded, from payment
recapture audits, the payments that were made outside the RM/GFS/F/C payment process. For
example, the Department excluded overseas payments amounting to about $2.6 billion. These
payments were processed by the Regional Financial Management System (RFMS), the
Department’s overseas financial system, rather than GFMS. The Department also excluded grant
payments amounting to about $3.0 billion that were made through the Payment Management
System,14 which processes the majority of the Department’s financial assistance-related
payments. In addition, the Department excluded pension annuity payments amounting to about
$671 million that were processed by RM’s Retirement Accounts Division. The Department
excluded these payments for a variety of operational reasons. For example, RFMS does not
require that the invoice number, which is used by RM/GFS/OMA to identify duplicate payments,
be entered for overseas payments, and in some cases, multiple invoices may be entered and the
payments may be made with one disbursement.

       The Department also excluded certain payments that were processed by RM/GFS/F/C
from the recapture audits. The excluded payments included, but were not limited to, bulk
payments, which included purchase card payments, shipping payments, and certain travel
payments. These bulk payment exclusions exceeded $250 million in FY 2011.


14The Payment Management System is a grant payment system maintained by the U.S. Department of Health and
Human Services.

                                                11
                                           UNCLASSIFIED
                                       UNCLASSIFIED


        As a result of the exclusions, the Department’s FY 2011 recapture audit activities covered
$9.5 billion, or about 86 percent, of the $11 billion in payments processed by RM/GFS/F/C and
only about 46 percent of the Department’s FY 2011 expenses subject to IPERA reviews of
approximately $20.7 billion. Although it excluded a significant amount of payments, the
Department did not perform and document a cost-benefit analysis supporting the basis for these
exclusions, as was required. In addition, the Department did not notify OMB and OIG of the
exclusions.

Recapture Audit Focus

        IPERA requires agencies to conduct payment recapture audits for each program that
expends $1 million or more annually if conducting such audits would be cost effective. OMB
Circular A-123, Appendix C, requires all programs exceeding the $1 million threshold, including
grant, benefit, loan, and contract programs, to be considered during the payment recapture audits.
Agencies are required to review their different types of programs and prioritize conducting
payment recapture audits on those categories that have a higher potential for overpayments and
recoveries.

       Kearney found that the Department’s recapture audits focused on payments rather than on
programs. The Department’s approach enabled it to include a large number of payments in the
recapture audits. Although performing recapture audit activities based on payments is a
beneficial internal control, using a payment approach alone does not consider specific program
characteristics that may increase or decrease the risk for improper payments. For example,
payments made for programs that have a large number of disbursements and limited oversight
resources, such as programs in war zones or at some hardship posts, received the same level of
review as payments for programs that have a small number of disbursements and adequate
resources. In addition, although the amount of improper payments identified during recapture
audits may appear to be insignificant to the Department as a whole using the payment approach,
the amount of improper payments identified for a specific program may be significant to the
program. A more program-focused approach would enable the Department to identify the
programs that have a high rate of improper payments, target future recapture audit activities
more efficiently on those programs, and identify and correct the circumstances that led to
improper payments in those programs.

        The deficiencies identified in the Department’s recapture audit program occurred
primarily because the Department had not developed policies and standard procedures for
performing recapture audits that included identifying the programs and payments to be audited;
for obtaining the information necessary for the audits from sources outside RM/GFS/F/C; for
performing cost-benefit analyses to identify programs or payments to be excluded; and, if
programs or payments are excluded, for making the appropriate notifications to OMB and OIG.

         Without a sufficient, cost-effective recapture audit program, the Department may have
made but may not have identified and recovered all improper payments. A well-designed
recapture audit process targets areas most susceptible to improper payments and leverages the
latest technologies. Although traditionally used as a technique to identify improper payments



                                            12
                                       UNCLASSIFIED
                                       UNCLASSIFIED


already made, recapture auditing results can also be used to identify trends in improper payments
and improve controls to prevent improper payments.

       Recommendation 2. OIG recommends that the Bureau of Resource Management
       develop policies and standard procedures for its recapture audit activities. These policies
       and procedures should include, but not be limited to, the following:

             Program, as well as payment, audit activities to help target recapture audits on
              programs or payment types that are deemed higher risk.
            Alternative procedures to audit payments occurring outside the Global Financial
              Management System.
           	 Analytics and other proven recapture audit techniques (for example, predictive
              modeling, additional forensic accounting tools, additional data matches, and
              financial incentives) that address improper payments types other than duplicate
              payments.
           	 Requirements for performing a cost-benefit analysis for programs and payment
              types excluded from recapture audit activities and communicating the exclusions
              to the Office of Management and Budget and OIG.

       Department Response: The Department concurred that the Department’s existing
       recapture activities “can be strengthened with added policies and procedures.”

       OIG Reply: OIG considers the recommendation resolved, pending further action. This
       recommendation can be closed pending OIG’s review and acceptance of the
       Department’s policies and procedures for recapture audit activities.

C. Required Improper Payments Disclosures in the FY 2011 Agency
Financial Report Were Omitted or Were Inaccurate
        AFRs play a significant role in fulfilling the Government’s duty to be accountable and
can be used to assess an agency’s efficiency and effectiveness in performing activities such as
identifying and recapturing improper payments. The Department’s FY 2011 AFR included
information that provided a high-level understanding of the Department’s IPIA process and
recapture audit results. However, the AFR did not include all required disclosures, and some
information included in the AFR was inaccurate. By not including complete and accurate
information in its AFR, the Department is not providing users with relevant and reliable
information about its efforts related to improper payments.

       IPERA states that for an agency to be in compliance with IPIA, the agency must publish
an annual financial statement for the most recent fiscal year and post that report, with the
information on improper payments required by OMB, on the agency’s Web site. OMB Circular
A-123, Appendix C, requires an agency to disclose specific information relating to improper
payments in its annual AFR in the format provided in OMB Circular A-136.

      The Department published its FY 2011 AFR on its Web site. The AFR included certain
improper payments disclosures. For example, the AFR included summary information on

                                            13
                                       UNCLASSIFIED
                                       UNCLASSIFIED


improper payments, a general description of the Department’s risk assessment process, and a
description of the Department’s payment recapture audit program. The information reported in
the AFR provided a high-level of understanding of the Department’s IPIA processes and the
recapture audit results achieved.

        Although the Department included some of the required disclosures in its AFR, Kearney
identified several disclosures that were omitted by the Department. For example, OMB Circular
A-136 requires that an agency provide a brief description of its progress on eliminating and
recovering improper payments in the Management’s Discussion and Analysis section of its AFR.
OMB Circular A-123, Appendix C, requires that an agency report the basis for its groupings of
programs in the AFR and provide a description and justification of the classes of payments
excluded from payment recapture audits as well as an explanation of why recapture audits were
not performed on all programs, including those programs in which an agency has determined that
a payment recapture audit program is not cost effective. The Department did not make these
disclosures in its FY 2011 AFR.

        In addition, the Department’s payment recapture tables in the AFR did not follow the
format provided in OMB Circular A-136, and the Department did not include all required
information in the tables. Specifically, the tables did not include columns to identify the
programs for which recapture audits were performed, as was required. Further, the recapture
tables did not include complete information on the payments identified and recovered through
sources other than payment recapture audits. The Department included the amounts identified
and recovered by RM/GFS/OMA during recapture audit activities and RM/GFS/F/C during post-
payment reviews. However, the Department did not include information on payments identified
and recovered in other Department offices and bureaus, such as OIG recoveries, contract close-
out recoveries, recoveries resulting from grant compliance reviews, and pension overpayment
recoveries.

        Kearney also identified some information in the AFR that was inaccurate. In its
description of the recapture audit analysis, the Department states that the domestic payment file
used during the analysis “presently includes the majority of payments subject to IPERA
requirements such as most domestic vendor payments and grant payments.” However, the
Department did not include grant payments made through the Payment Management System in
its recapture audits, and these payments make up the majority of grant payments made by the
Department. Further, the recapture tables include a column for identifying the type of payment
included in the payment recapture audit. In the Department’s payment recapture tables, this
column indicated that all payments were subject to the review. However, as discussed in Finding
B, the Department excluded, from its payment recapture audits, certain payment types, including
overseas payments, Payment Management System payments, pension annuity payments, and
bulk payments.

       Although the Department had informal processes for preparing the improper payments
disclosures for its AFR, it had not developed policies and standard procedures for preparing the
disclosures and ensuring their completeness and accuracy.




                                            14
                                       UNCLASSIFIED
                                        UNCLASSIFIED


        By not including all required information in its AFR, the Department did not provide
users with relevant and reliable information about its efforts to prevent and identify and recover
improper payments. AFRs play a key role in fulfilling the Government’s duty to be accountable
for the use of public funds, and AFRs can be used to assess an agency’s efficiency and
effectiveness in performing activities such as identifying and recapturing improper payments.
The results of an agency’s actions related to improper payments should be available not only to
Congress and agency management but also to the general public.

       Recommendation 3. OIG recommends that the Bureau of Resource Management
       develop policies and standard procedures that ensure that the improper payments
       information included in the Department of State Agency Financial Report is complete
       and accurate.

       Department Response: The Department concurred that the Department’s existing
       reporting activities “can be strengthened with added policies and procedures.”

       OIG Reply: OIG considers the recommendation resolved, pending further action. This
       recommendation can be closed pending OIG’s review and acceptance of the
       Department’s policies and procedures for reporting improper payments information in the
       AFR.




                                             15
                                        UNCLASSIFIED
                                        UNCLASSIFIED


                                 List of Recommendations

Recommendation 1. OIG recommends that the Bureau of Resource Management develop
policies and standard procedures for performing an improper payments risk assessment. The
policies and procedures should include, but not be limited to, the following:

      A comprehensive definition of the programs to be assessed. 

      A method to ensure that all program costs are identified. 

      A description of the quantitative and qualitative factors to be considered. 

      A method to obtain input from the bureaus and offices responsible for the programs.


Recommendation 2. OIG recommends that the Bureau of Resource Management develop
policies and standard procedures for its recapture audit activities. These policies and procedures
should include, but not be limited to, the following:

     Program, as well as payment, audit activities to help target recapture audits on programs
      or payment types that are deemed higher risk.
    Alternative procedures to audit payments occurring outside the Global Financial
      Management System.
   	 Analytics and other proven recapture audit techniques (for example, predictive modeling,
      additional forensic accounting tools, additional data matches, and financial incentives)
      that address improper payments types other than duplicate payments.
   	 Requirements for performing a cost-benefit analysis for programs and payment types
      excluded from recapture audit activities and communicating the exclusions to the Office
      of Management and Budget and OIG.

Recommendation 3. OIG recommends that the Bureau of Resource Management develop
policies and standard procedures that ensure that the improper payments information included in
the Department of State Agency Financial Report is complete and accurate.




                                             16
                                        UNCLASSIFIED
                                       UNCLASSIFIED



                                                                                     Appendix A

                                  Scope and Methodology
        The Improper Payments Elimination and Recovery Act of 20101 (IPERA), which amends
the Improper Payments Information Act of 20022 (IPIA), requires the Office of Inspector
General (OIG) to conduct an annual audit of the Department of State’s (Department) compliance
with improper payments requirements. In accordance with the IPERA requirement, an external
audit firm, Kearney & Company, P.C. (Kearney), acting on OIG’s behalf, performed this audit to
determine whether the Department was in compliance with IPIA, as amended by IPERA.

       Kearney conducted this performance audit from December 2011 through February 2012
in Washington, D.C., and at the Office of Global Financial Services in Charleston, South
Carolina. Kearney planned and performed the audit in accordance with performance audit
requirements in the Government Accountability Office’s Government Auditing Standards, July
2007 Revision. Those standards required that Kearney obtain sufficient, appropriate evidence to
provide a reasonable basis for findings and conclusions. The sufficiency and appropriateness of
evidence needed and tests of evidence related directly to the objective and scope of the audit.

       Kearney focused the scope of the audit on the following objectives: (1) evaluation of the
accuracy and completeness of the Department’s improper payments risk assessment process; (2)
evaluation of the Department’s performance in preventing, reducing, and recapturing improper
payments; and (3) reviewing the Department’s FY 2011 Agency Financial Report (AFR) to
determine whether the agency complied with requirements.

        Kearney designed the audit to obtain insight into the Department’s current processes,
procedures, and organizational structure with regard to compliance with IPIA requirements. To
expedite the audit process, Kearney leveraged the results of its FY 2011 financial statement audit
of the Department to confirm its understanding of the nature and profile of Department
operations, IPIA standards, regulatory requirements, and supporting information systems and
controls.

        Kearney conducted process walkthroughs and interviews with Department officials to
obtain a sufficient understanding of the steps taken by the Department to assess the risk of
improper payments; its process of identifying significant improper payments; the steps taken to
prevent, reduce, and recapture improper payments; and the process of reporting improper
payments. Consistent with the fieldwork standards for performance audits, Kearney established
performance criteria and identified sources of audit evidence to complete the testing phase.

        The testing phase provided Kearney with evidence to determine the findings of the report
issued for the performance audit. The criteria determined in the planning phase served as the
bases for assessing the Department’s compliance with IPIA requirements. The testing phase
included procedures to assess the Department’s IPIA reporting process, the recapture audit
process, and the AFR disclosures.

1   Pub. L. No. 111-204 §3(b).
2   Pub. L. No. 107-300.

                                            17
                                       UNCLASSIFIED
                                     UNCLASSIFIED




        During the reporting phase, Kearney formally communicated the conclusions reached and
the findings and recommendations for the actions the Department should take to comply with
IPIA requirements.




                                          18
                                     UNCLASSIFIED
                               UNCLASSIFIED



                                                                                   Appendix B



                                                     United Siaies Deptlrlmenl of Slate

                                                     Chief Pill(Hl ciu/ Officu

                                                     lVu.shingIQII , D .C. 20520


                                                     MAR 122012
UNCLASSIFIED
MEMORANDUM

TO:          DIG - Harold W. Geisel

FROM:        RM - James L. Mjlle' ) j - -

SUBJECT: Draft Report on Audit of Department of State Compliance With the
Improper Payments Information Act

Thank you for the opportunity to comment on the Office of Inspector General's
(DIG) Draft Report on the Department of State Compliance with the Improper
Payments lnfonnation Act (IPIA) for FY 2011 .

lbis compliance audit represents a new layer of required reporting to OMB and
Congress for FY 20 II . The associated IPIA regulatory guidance was formally
released in April 201 1 and OMB revision ofCircuJar No. A-136, wbich provides
financial reporting requirements, was released on October 27, 20 II , after fiscal
year-end. Althougb recently issued, the Department has made significant efforts to
comply with all guidance in a manner that also leverages the good stewardship of
government funds and ensures our initiatives are cost-effective. While we may
not agree on all aspects of the report, we concur with the recommendations that
the Department's existing risk assessments, recapture, and reporting activities for
improper payments can be strengthened with added policies and procedures

As acknowledged in the Draft Report, the Department has employed numerous
preventative and identification methods to support IPIA requirements. We have
dedicated considerable resources to prevent improper payments from occurring"
and take pride in our track record of success based on the low volume of actual
improper payments identified and recovered each year. Prior IPIA regulatory
guidance was geared toward high-risk programs and activities that were deemed
susceptible to significant improper payments. Despite having no programs or
activities susceptible to significant improper payments, as previously defined, the
Department used risk assessment and recapture initiatives to assist in identifying


                                    Unclassified




                                    19

                               UNCLASSIFIED
                                UNCLASSIFIED




                                    Unclassified
                                         2

improper payments and related payment issues. In addition, with the
implementation of our Global Financial Management System in 2007, we fully
integrated acquisitions into the frnancial system at the line level, significantly
enhancing the integrity of our payments.

We recognize that the IPERA and related guidance has raised the bar on
transparently accounting for and preventing improper payments for all Agencies,
including the Department. We are committed to meeting these compliance
requirements in a reasoned manner. We look forward to working with both the
OIG and the Independent Auditor on further enhancements to our existing IPIA
and IPERA programs in the coming year.




                                     20

                                UNCLASSIFIED

UNCLASSIFIED





UNCLASSIFIED

